                               CLOSEOUT FOR A01070027



On July 16,2001, we reLeived an allegation that a PI' (1) failed to declare all pending proposals
and anticipated submissions on the Current and Pending Support forms for two proposals
( ~ r o ~ o s a l -and
                    l 2 ~ r o ~ o s a l - 2and
                                            ~ ) ,(2) failed to notify NSF of an award by a Foundation
(~ro~osal-34).       Proposal-1 was declined and Proposal-2 was funded by NSF.

Allegation 1. Subject allegedly submitted inaccurate Current and Pending Support forms in two
NSF proposals, each of which failed to mention the other. On Proposal-2, OIG determined that
Subject followed NSF guidelines for Current and Pending Support: the Grant Proposal Guide
(NSF 01-2, II.C.7) states that projects should be listed when they require a portion of the PI'S
time, and the FastLane Frequently Asked Questions webpage directs applicants not to fill out the
form for projects on which they have no time commitment. Subject had no time commitment on
Proposal-1. On Proposal-1, OIG determined that Subject's Current and Pending Support form
should have listed Proposal-2 as a planned submission. However, failure to do so was plausibly
an oversight. No pattern of inaccuracy was found on Subject's previous NSF proposals. OIG
concluded that this matter did not rise to the level which would warrant a formal request for
explanation.                                                           1I


 Allegation 2. Subject allegedly failed to notify NSF of an award on Proposal-3, which was
 funded while Proposal-1 and Proposal-2 were under review by NSF. OIG determined that no
 such notification requirement is stated in the Grant Proposal Guide, the standard award letter, or
 the Grant General Conditions. However, if the possibility of duplicative funding should arise, it -
 would be incumbent upon a PI to notify NSF and to discuss appropriaie revisions in project
                                                                                               -    .   -


-scope. We-determinedthat the PI on Proposal-1 notified the cognizant Program Officer of the
 award on Proposal-3. There was some overlap between these two proposals. With respect to
 Proposal-2, the PI (Subject) listed Proposal-3 under 'Current Grant Support' in an e-mail to the
 Program Officer prior to the PO'S funding recommendation. This arguably constituted
 notification, which in any case is not required. OIG concluded that there was no substance to the
                                                                         I
 allegation that Subject failed to inform NSF of an award.

This inquiry is closed and no further action will be taken.

cc: Investigations, IG




I   [redacted]
    [redacted.]
    [redacted]
4   [redacted]



                                          Page 1 of 1
